OIG Audit Report GR-30-04-001

Training and Technical Assistance Provisions for Bureau of Justice Assistance's Community Prosecution Grantees Grant Number 2000-PP-CX-K001 Administered by the American Prosecutors' Research InstituteAlexandria, Virginia

Report No. GR-30-04-001


January 2004
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of the Training and Technical Assistance Provisions for Bureau of Justice Assistance's Community Prosecution Grantees grant awarded by the U.S. Department of Justice (DOJ), Office of Justice Programs (OJP) to the American Prosecutors' Research Institute (APRI).   The purpose of this grant is to provide grantees (who will be planning, implementing and enhancing their community prosecution programs), access to APRI support, expert guidance and information in order to be successful in developing and implementing a more comprehensive criminal justice concept that fits their individual jurisdictions.  Between January 14, 2000 and September 26, 2001, the OJP awarded APRI a total of $2,061,559.
We reviewed the APRI's accounting records to determine whether the grantee adhered to all financial and administrative conditions of the grant award and if costs charged to the grant were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the agreement.
We found that the APRI complied with OJP grant requirements.  Our audit revealed that adequate controls were taken over the accounting process and records relating to the grant.  We determined that costs claimed for reimbursement were allowable, supported and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the grant.
Our audit objectives, scope, and methodology appear in Appendix I.